DOE/IG-0436




         AUDIT
        REPORT

                                             THE
                                 U.S. DEPARTMENT OF ENERGY'S
                                PROCUREMENT AND ASSISTANCE
                                         DATA SYSTEM




                                             JANUARY 1999




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                             January 19, 1999


MEMORANDUM FOR THE SECRETARY

FROM:              Gregory H. Friedman
                   Inspector General

SUBJECT:             INFORMATION: Audit Report on "The U.S. Department of Energy's Procurement
                    and Assistance Data System"

BACKGROUND

The Procurement and Assistance Data System (PADS) is the Department's official computerized system
maintained to collect, track, and report Department of Energy procurement and financial assistance actions.
The system stores information used to (1) monitor procurement and financial assistance processes, awards,
and administration; (2) provide required recurring reports to the Office of Management and Budget,
General Services Administration, Department of Commerce, and Small Business Administration; and (3)
satisfy Freedom of Information Act and congressional requests and other public inquiries.

The objectives of this audit were to determine whether the system (1) contained accurate, complete, and
current data; (2) met user needs and regulatory requirements; and (3) met generally accepted system
practices for development and operation. The review was part of the Office of Inspector General's
continuing work with respect to the agency's information systems and compliance with the Government and
Performance Results Act of 1993.

RESULTS OF AUDIT

PADS did not contain material inaccuracies or omissions for data that was required by the system.
However, PADS did not meet user needs or comply with current generally accepted system practices. Due
to an outdated system design, it was not easy to use, particularly with regard to data entry and retrieval.
Furthermore, the system did not provide users with the information they believed was needed to manage
procurements. As a result, the field and program offices relied on systems that they had independently
developed to meet their information needs. In addition, PADS did not comply with current generally
accepted system practices of integrating the procurement information system with the financial
management system.

In recent years, the Department undertook an initiative to redesign PADS. Accroding to Department
officials, that effort was unsuccessful because the contractor responsible for the initiative did not meet
performance expectations. Further, we concluded that the effort was flawed because it did not sufficiently
involve users and it was not part of an overall Departmental information architecture systems development
approach. Accordingly, a plan is needed for providing procurement and financial assistance information
that involves users. The plan should also be consistent with the Department's Information Technology
Architecture.
MANAGEMENT REACTION

The Director, Management and Administration, generally concurred with the recommendation. The Director
stated that PADS currently meets its primary mission. However, he agreed with the need to develop a plan,
as part of the Department's Business Management Information System effort to provide procurement and
assistance information consistent with the recommendation.

Attachment

cc: Acting Deputy Secretary
    Under Secretary
The U.S. Department Of Energy's Procurement And Assistance
Data System



TABLE OF
CONTENTS

                  Overview

                  Introduction And Objective .................................................................1

                  Conclusions And Observations ............................................................2

                  Procurement And Assistance Data System

                  Details Of Finding ..............................................................................4

                  Recommendation And Comments .......................................................7


                  Appendix 1

                  Scope And Methodology ....................................................................8


                  Appendix 2

                  Related Studies And Reviews............................................................10
Overview

INTRODUCTION    The Department of Energy (Department) is the largest civilian
AND OBJECTIVE   contracting agency in the Federal Government. The Department
                generally fulfills its multiple missions through contractors who manage
                and operate its federally owned facilities. In Fiscal Year 1997, about 70
                percent ($13.8 billion) of the Department's total obligations were for its
                management and operating contractors.

                The Procurement and Assistance Data System (PADS) is the
                Department's official computerized system maintained to collect, track,
                and report procurement and financial assistance (e.g., grant) actions.
                Since 1981, this system has supported both the management and
                procurement information needs for Department contract administration.
                According to Department Order 1331.1D "Procurement and Assistance
                Data System," the system tracks procurement and grant actions from
                initiation and award through retirement and contains data on obligations
                and awards of funds by the Department. It also stores information that
                is used to:

                • provide an overview of Departmental procurement and grant
                  actions, multiple categories of awards or anticipated awards, trend
                  data, and other management information;
                • monitor procurement and grant processes, awards, and
                  administration;
                • submit required recurring reports to the Office of Management and
                  Budget, General Services Administration (GSA), Department of
                  Commerce (Commerce), and Small Business Administration; and
                • satisfy other information requirements such as Freedom of
                  Information requests, congressional requests, and public inquiries.

                The Office of Procurement and Assistance Management (Procurement),
                within the Office of Management and Administration, has overall
                responsibility for maintenance and operation of the system. Specifically,
                Procurement is responsible for establishing and defining system
                requirements in accordance with Departmental computer software
                management policy and procedures. It is also responsible for monitoring
                the system's operations to ensure that functional requirements are
                supported. Further, Procurement develops, maintains, and distributes
                documentation and instructions for the preparation and submission of
                input and retrieval of data.

                The objectives of this audit were to determine whether the system (1)
                contained accurate, complete, and current data; (2) met user needs and
                regulatory requirements; and (3) met generally accepted system

Page 1                                                   Procurement And Assistance
                                                                       Data System
                  practices for development and operation. The review was part of the
                  Office of Inspector General (OIG) continuing audit work with respect to
                  the agency's compliance with the Government and Performance Results
                  Act of 1993.


CONCLUSIONS AND   PADS did not contain material inaccuracies or omissions for data that
OBSERVATIONS      was required by the system. However, it did not fully satisfy
                  management and procurement information needs. Specifically, the
                  system was not easy to use and did not fully provide users with the
                  information they believed was needed to manage procurements. As a
                  result, the field and program offices relied on systems that they had
                  independently developed to meet their information needs. PADS also did
                  not comply with current generally accepted system practices of
                  integrating the procurement information system with the financial
                  management system and did not fully meet Commerce reporting code
                  regulatory requirements. As a result, inconsistencies existed between
                  PADS and other information systems.

                  During our review, Procurement acknowledged that PADS (1) was
                  outdated, (2) was difficult to use, and (3) did not comply with current
                  generally accepted system practices such as integration with the financial
                  management system.

                  In recent years, the Department initiated a redesign of PADS. However,
                  the effort was unsuccessful. Procurement officials attributed the failure
                  of the redesign effort to poor contractor performance. However,
                  program and field office personnel stated that they did not have an
                  opportunity to provide input to project planning and design. Also, the
                  project was not part of an overall Departmental information architecture
                  that could be used as a blueprint in developing information systems to
                  increase data sharing and reduce system redundancy.

                  In August 1998, the OIG issued an audit report on the Review of the
                  U.S. Department of Energy's Information Management Systems
                  (DOE/IG-0423). The audit determined that the Department had not
                  developed and implemented an information technology architecture. It
                  further noted that Headquarters offices needed to develop and implement
                  their own information architectures in order to implement a Departmental
                  architecture that would reduce system redundancy.




Page 2                                                      Procurement And Assistance
                                                                          Data System
         Recognizing PADS' shortcomings, Procurement, in 1997, began an
         initiative to explore technologies and improve the data entry process.
         As of October 1998, this initiative was suspended because of a lack of
         funding.

         In accordance with the Department's Strategic Plan, an integrated
         Departmentwide framework is to be used for planning, budgeting,
         evaluating, and implementing information management requirements to
         reduce costs and improve operations. Moreover, effective October 1,
         1998, the Government Performance and Results Act of 1993 requires
         the Department to prepare performance plans. This planning process is
         designed to ensure that efforts to improve procurement and financial
         assistance information systems are consistent with the Department's
         overall strategic goals and objectives.

         Accordingly, we recommend that the Director, Management and
         Administration, develop and implement a plan for providing
         procurement and financial assistance information. In developing this
         plan, the Director should ensure that users of procurement and financial
         assistance information are included in the process, and steps taken in the
         plan are consistent with the Department's Information Technology
         Architecture. The implementation plan should include relevant analyses
         of the costs and benefits, current information technologies, users needs,
         other requirements, and generally accepted system practices.

         In our opinion, the matters discussed in this report should be considered
         by management when preparing its yearend assurance memorandum on
         internal controls.



                                       ________/S/___________
                                       Office of Inspector General




Page 3                                            Procurement And Assistance
                                                                Data System
Procurement And Assistance Data System

PADS Did Not Meet    PADS did not fully satisfy the management and procurement
Information Needs,   information needs of the Department. It was not easy to use,
Requirements, And    particularly with regard to data entry and retrieval. Specifically, data
Accepted Practices   entry was difficult because codes were used to represent much of the
                     information that is recorded. For example, users either had to be
                     familiar with 20 codes or refer to guidance instructions to record the
                     type of contract award instrument. These codes described various
                     aspects of a procurement or grant, such as the appropriate kind of award
                     action taken by the awarding office or the type of award. Users also
                     found data retrieval difficult. While users could obtain several standard
                     reports from the system, they were voluminous. Furthermore, creating
                     customized reports required specialized knowledge of the PADS' data
                     base management system. Users had to contact Procurement
                     representatives and ask them to create customized reports when needed.

                     Collection of information to track and report all contracting activities
                     was also not readily available because the Department did not have an
                     integrated system. Users had to rely on three separate systems,
                     including PADS, to compile and report procurement data to the
                     Congress and others. Separate systems were needed to track
                     subcontracts and small purchases under $25,000. These systems were
                     not integrated with PADS so that managers could obtain one view of the
                     Department's procurement activity. This inhibited users in summarizing
                     and analyzing data on all of the Department's procurement activity.

                     Additionally, PADS did not meet current generally accepted system
                     practices that are intended to increase efficiency in procurement
                     information management. Specifically, PADS:

                     • Was not integrated with the Department's financial management
                       system. Such integration is needed to reduce redundant data entry
                       into the procurement and financial management systems and to
                       ensure consistency between the systems. For example, the
                       Department's accounting system recorded a $15 million contract
                       modification that PADS did not record, which led to inconsistency in
                       the financial information reported in the systems.

                     • Did not track the status of task orders. This capability is needed to
                       manage the acquisition function.




Page 4                                                                   Details Of Finding
                           PADS also did not fully meet current Commerce reporting code
                           regulatory requirements. Specifically, Commerce requires that Federal
                           agencies report procurement information to its government-wide system.
                           In order for the data to be consistent, Commerce requires that reporting
                           agencies use codes recommended by the Federal Information Processing
                           Standards. In one area, organizational codes, PADS did not totally
                           comply with this requirement.


Federal Requirements For   Office of Management and Budget Circular A-127 requires Federal
Procurement And            agencies to (1) establish and maintain a single integrated financial
Assistance Data Systems    management system, which includes procurement and assistance systems
                           such as PADS and (2) provide complete, timely, reliable, consistent, and
                           useful financial information to decision makers and to central
                           management agencies to carry out their responsibilities. The Circular
                           also requires each agency to establish and maintain a single, integrated
                           financial management system to conform with functional requirements as
                           defined by the Joint Financial Management Improvement Program.
                           According to the Joint Financial Management Improvement Program,
                           agencies' acquisition systems should prepare and track the status of
                           requisitions, small purchases, and contracts; record and validate the
                           receipt of goods and services; and provide information to the core
                           financial system for matching invoices and issuing payments.


Insufficient Planning      Procurement acknowledges that PADS is outdated and difficult to use.
And Analysis               As early as 1982, the General Accounting Office (GAO) reported that
                           the Department did not adequately analyze the costs and benefits of the
                           design and implementation of PADS. They also noted at the time that
                           PADS would only track active procurement data and would not handle
                           such processes as pre-procurement planning. The GAO further noted
                           that the Department's program and field procurement offices were
                           reluctant to rely on PADS and that some had elected to use informal
                           systems to satisfy their procurement information needs.

                           A major Departmental project to redesign PADS was undertaken in
                           1989 and canceled in 1995. Procurement officials attributed the
                           redesign efforts failure to poor contractor performance. However,
                           program and field personnel stated that they did not have the
                           opportunity to provide input to project planning and design.




Page 5                                                                         Details Of Finding
                          Furthermore, the redesign project did not adequately measure costs and
                          benefits. In addition, a 1995 internal report by the Financial Information
                          Team pointed out that the redesign project did not address the
                          possibility of integration or communication with other systems in the
                          Department.

                          In May 1998, the Department completed the definition phase of its
                          information architecture when the "Vision" document was issued. This
                          document should serve as a blueprint for all of the Department's system
                          development activities. However, the Office of Management and
                          Administration had not developed a plan to ensure that a system for
                          procurement and financial assistance information (1) was consistent with
                          the Department's information architecture and (2) was integrated with
                          other Departmental systems to promote data sharing and reduce
                          information system redundancy. Specifically, the Office of Management
                          and Administration had not examined how to best process procurement
                          and grant information given current technology. Office of Management
                          and Administration officials told us that budgetary constraints have
                          hampered the development of plans to replace PADS.


Program And Field         Due to the inability of PADS to meet their needs, Department program
Offices Relied On Their   and field offices either used or were developing independent or informal
Own Systems               systems to help meet information needs. These offices had established or
                          planned to establish their own systems because they were easier to use
                          and better met the needs of customers. For example, the Office of Fossil
                          Energy, including its program and field offices, maintained separate
                          databases for supporting their information needs with respect to budget
                          development, procurement planning, and procurement execution. Also,
                          the Office of Energy Efficiency and Renewable Energy spent over
                          $1 million a year to maintain and operate a system to manage its grant
                          activity.

                          In December 1996, the Department published its Information
                          Architecture Baseline Analysis, which also underscored the fact that
                          functional duplication and redundancy of systems exists in
                          Departmentwide systems. The Analysis identified 73 systems within the
                          Department that are used to prepare, execute, and monitor contracts;
                          purchase orders; grants; and other awards. It also identified eight
                          applications considered redundant for tracking Headquarters
                          procurement actions and requisitions.




Page 6                                                                         Details Of Finding
RECOMMENDATION   The Director, Management and Administration, should develop and
                 implement a plan for providing procurement and financial assistance
                 information. The planning process should include users of procurement
                 and financial assistance information and should ensure that the plan is
                 consistent with the Department's Information Technology Architecture.
                 The implementation plan should document relevant analyses of:

                 •   costs and benefits,
                 •   current information technologies,
                 •   user needs,
                 •   regulatory requirements,
                 •   generally accepted system practices
                 •   data sharing, and
                 •   system integration.


MANAGEMENT       The Director, Management and Administration, generally concurred
REACTION         with the recommendation but offered the following comments. PADS
                 currently meets its primary mission: to collect procurement and financial
                 assistance information and provide such information to the Federal
                 acquisition and financial assistance data systems. However, PADS is old
                 and was not designed to satisfy current financial and user needs. Rather
                 than redesign PADS, Procurement will work with the Office of Chief
                 Financial Officer to develop a corporate Business Management
                 Information System (BMIS). The corporate system will provide a
                 solution to the financial and business information needs, including
                 procurement in the Department of Energy. The Director agreed with
                 the need to develop a plan as part of the BMIS effort to provide
                 procurement and assistance information consistent with the
                 recommendation.


AUDITOR          While PADS may generally meet the primary mission for which it was
COMMENTS         designed in the early 1980s, user needs and requirements have changed.
                 PADS does not meet these current needs and requirements.
                 Management’s commitment to develop a plan to provide procurement
                 and assistance information as part of BMIS is responsive to the
                 recommendation.




Page 7                                                               Recommendations
                                                                       And Comments
Appendix 1

SCOPE         The audit was performed between December 1997 and September 1998.
              We examined how the system was being used and managed, measured
              the system's data accuracy, and examined opportunities for improving
              the system's effectiveness.



METHODOLOGY   To accomplish our objectives, we obtained and reviewed applicable laws
              and regulations pertaining to the design and implementation of
              information technology. We also reviewed reports by the Office of
              Inspector General, the General Accounting Office, and various task
              forces and advisory groups. We also used a structured interview
              document to discuss use of the system and its information with program
              and field office users. Officials and staff were interviewed at the
              Department's operations offices in Albuquerque, New Mexico, and
              Oakland, California. These locations were chosen because they are two
              of the largest procurement offices in the Department.

              We also interviewed program officials and operating personnel from the
              Offices of Chief Financial Officer, Defense Programs, Economic Impact
              and Diversity, Energy Efficiency and Renewable Energy, Environmental
              Management, Energy Research, Fossil Energy, Management and
              Administration, and the Energy Information Administration. We also
              reviewed numerous documents related to PADS use, operation, and
              output. In addition, we reviewed and analyzed documents on the PADS
              redesign effort, including documents on user requirements, system
              design, and testing results. We reviewed Departmental planning
              documents including the 1997 Information Management Strategic Plan.

              Data integrity was assessed by comparing selected system data elements
              to source documents in the Albuquerque and Oakland Operations
              Offices and the Headquarters Procurement Office. In addition, we
              obtained electronic media from operations personnel and used computer
              assisted audit techniques, including selected system queries, to assess
              data quality. We also interviewed officials from the Department of
              Commerce, the General Services Administration, and the Small Business
              Administration to determine whether the agency is complying with
              applicable reporting requirements, particularly with respect to the
              submission of accurate and complete data in a timely manner.

              The audit was conducted in accordance with generally accepted
              Governmental auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to the


Page 8                                                      Scope And Methodology
         extent necessary to satisfy the audit objectives. Accordingly, we
         assessed internal controls regarding the PADS system that were
         designed to ensure data reliability. Because our review was limited, it
         would not have necessarily disclosed all internal control deficiencies that
         may have existed.




Page 9                                                 Scope And Methodology
Appendix 2
RELATED STUDIES   Review of the U.S. Department of Energy's Information Management
AND REVIEWS       Systems, DOE/IG-0423, August 1998. The report stated that the
                  Department had not developed and implemented an Information
                  Technology Architecture (ITA). The OIG concluded that, without an
                  ITA, the Department will not achieve qualitative benefits, such as
                  reducing the number of redundant application systems and the
                  maintenance costs associated with these different systems.


                  Audit of Departmental Integrated Standardized Core Accounting
                  System (DISCAS) Design and Internal Control Structure, AP-FS-96-02,
                  March 1996. The report pointed out that DISCAS was not adequately
                  integrated into a unified automated financial management system for the
                  Department. The report added that users are faced with obtaining
                  information from various systems located on different computer
                  platforms, each with different software and access procedures.




Page 10                                                 Related Studies And Reviews
                                                                         IG Report No. DOE/IG-0436

                                CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible to our customers' requirements, and,
therefore, ask that you consider sharing your thoughts with us. On the back of this form, you may
suggest improvements to enhance the effectiveness of future reports. Please include answers to the
following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of
   the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in
   this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message
   more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed
   in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                  Office of Inspector General (IG-1)
                                        Department of Energy
                                       Washington, DC 20585

                                     ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
     friendly and cost effective as possible. Therefore, this report will be available
         electronically through the Internet at the following alternative address:


       Department of Energy Human Resources and Administration Home Page
                            http://www.hr.doe.gov/ig


           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.


                          This report can be obtained from the
                              U.S. Department of Energy
                     Office of Scientific and Technical Information
                                      P.O. Box 62
                             Oak Ridge, Tennessee 37831
